21st Floor
1251 Avenue of the Americas
New York, NY 10020-1104
Elizabeth A. McNamara
(212) 489-8230 tel
(212) 489-8340 fax
lizmcnamara@dwt.com

March 23, 2021
The Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street, NE
Washington D.C. 20543
Re:

Berisha v. Lawson, et al., No. 20-1063

Dear Mr. Harris:
Pursuant to Rule 30.4 of this Court and on behalf of respondents Simon & Schuster, Inc.,
Guy Lawson, Alexander Podrizki, David Packouz and Recorded Books, Inc.(“Respondents”), I
write to request a thirty day extension of the deadline to file Respondents’ Brief in Opposition
(the “Brief”) to Shkelzen Berisha’s Petition for a Writ of Certiorari filed in the above-captioned
action (the “Petition”). The Petition was filed on February 1, 2021 and Respondents initially
filed a waiver of their right to respond on February 17, 2021. On March 17, 2021, this Court
directed Respondents to submit their Brief responding to the Petition on or before April 16,
2021. Respondents respectfully request that their time to file the Brief be extended up to and
including Monday May 17, 2021.
A thirty day extension of Respondents’ time to file the response is justified. The Court
has directed me to file a brief in opposition to another petition seeking certiorari in an unrelated
case (Hamilton v. Speight, 20-1123) on or before April 16, 2021 – which is the same deadline
currently set for Respondents to file their Brief in this action. The requested extension is
necessary to enable me to draft both opposition briefs concurrently. Moreover, access to the
offices of my law firm have been restricted due to COVID-19. We also note that petitioner
Berisha made use of the additional sixty days allotted by this Court in its March 19, 2020 order
responding to COVID-19 and filed his brief 150-days after the circuit court decision came down.
Under these circumstances, the thirty day extension requested by Respondents is fair and
reasonable.
Counsel for petitioner Berisha does not oppose this request.

Hon. Scott S. Harris
March 22, 2021
Page 2

Best regards,
Davis Wright Tremaine LLP
/s/ Elizabeth A. McNamara
Elizabeth A. McNamara

cc:

Roy Arie Katriel, Esq.

